                                             NATIONAL SCIENCE FOUNDATION                      'i/
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM




    Action: Case Close


       1. An allegation was received in March 2002 from NSF OIG Audit identieing fraudulent
          activity as reported in                                 Financial Statements, August 3 1,
          2001 and 2000, page 46. The report questioned costs related to NSF proposal
                                                                                            II
                    , involving fraudulent travel claiins.

      2. NSF-OIG investigated the allegation and determined that the allegation and reported
         findings were identical to case number I0 1070016, which was opened in August 200 1

      3. The SUBJECT, ,                         was prosecuted by the FBI and arraigned in
         Houston, and is scheduled to be sentenced in May 2002.

      4. See case number 101070016 for additional information on this case. This investigatihn
         under this case number is closed and no further action is being taken by OIG at this time.




Sign 1 date    =
                       Agent

                                       -      Attorney               Supervisor

                                                                                       -            AIGI
